HHS/OIG-Audit-"Review of Intern and Resident FTE Counts for Direct and Indirect Graduate Medical Education Costs at Barnes-Jewish Hospital, St. Louis, Missouri,"(A-07-02-02096)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Intern and Resident FTE Counts for Direct and Indirect Graduate
Medical Education Costs at Barnes-Jewish Hospital, St. Louis, Missouri," (A-07-02-02096)
March 4, 2002
Complete
Text of Report is available in PDF format (541 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our limited
review of medical education payments made to Barnes-Jewish Hospital, St.
Louis, Missouri under the Medicare program.  The purpose of the review
was to determine the accuracy of intern and resident full-time equivalents
(FTEs) used by Barnes-Jewish Hospital (the Hospital) for claiming direct
graduate medical education and indirect graduate medical education costs.  The
review covered FTEs claimed for the Hospitals fiscal year ended December
31, 1998, for which the hospital claimed costs of $53,112,612.  Our
review did not show a need to revise the FTE counts or change control procedures
for developing the counts.  Therefore, we have no recommendations for
the Hospital to address.